DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


   Management Advisory Report – FEMA
    Emergency Housing Units Property
             Management




               DO NOT DISTRIBUTE WITHOUT OIG AUTHORIZATION
                                   DRAFT REPORT
       Review of FEMA’s Use of Proceeds From the Sales of Emergency Housing Units
                                         Page 0
OIG-08-33                                                                           March 2008
March 25, 2008




                 33
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
